Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Expenses and Revenues Presented in Congressional Testimony by Ochsner Health System
July 31, 2008 | A-01-08-00507
Executive Summary
Ochsner Health System's (the health system) expenses presented in its congressional testimony were generally accurate and supported by its financial records.  However, the health system's presentation of financial data for Ochsner Baptist Medical Center, one of its facilities, was not completely accurate because the health system presented Ochsner Baptist Medical Center's post-Katrina but not pre-Katrina financial data.  In addition, the health system's revenue presented in the testimony for the post-Katrina period did not include $20 million in one-time revenue that it received during this period. We conducted this review at the request of the House Committee on Energy and Commerce, before which the health system testified at a hearing on August 1, 2007.
The health system agreed with the results of our review.  This was an informational report, and we had no recommendations.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS